<html>
<title> - NANOTECHNOLOGY: FROM LABORATORIES TO COMMERCIAL PRODUCTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   NANOTECHNOLOGY: FROM LABORATORIES

                         TO COMMERCIAL PRODUCTS

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2014

                               __________

                           Serial No. 113-75

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
88-145                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas


                            C O N T E N T S

                              May 20, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    11
    Written Statement............................................    12

                               Witnesses:

Dr. Timothy Persons, Chief Scientist, United States Government 
  Accountability Office
    Oral Statement...............................................    14
    Written Statement............................................    17

Dr. Lloyd Whitman, Interim Director of the National 
  Nanotechnology Coordination Office and Deputy Director of the 
  Center for Nanoscale Science and Technology, National Institute 
  of Standards and Technology
    Oral Statement...............................................    42
    Written Statement............................................    44

Dr. Keith Stevenson, Professor, Department of Chemistry & 
  Biochemistry, The University of Texas at Austin
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. Mark Hersam, Professor, Department of Materials Science & 
  Engineering, McCormick School of Engineering & Applied Science, 
  Northwestern University
    Oral Statement...............................................    66
    Written Statement............................................    68

Mr. Les Ivie, President & CEO, F Cubed, LLC
    Oral Statement...............................................    75
    Written Statement............................................    77

Discussion.......................................................    90

             Appendix I: Answers to Post-Hearing Questions

Dr. Lloyd Whitman, Interim Director of the National 
  Nanotechnology Coordination Office and Deputy Director of the 
  Center for Nanoscale Science and Technology, National Institute 
  of Standards and Technology....................................   102

Mr. Les Ivie, President & CEO, F Cubed, LLC......................   109

            Appendix II: Additional Material for the Record

Submitted statement for the record by Representative Lamar S. 
  Smith, Chairman, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   114


        NANOTECHNOLOGY: FROM LABORATORIES TO COMMERCIAL PRODUCTS

                              ----------                              


                         TUESDAY, MAY 20, 2014

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Bucshon. The Subcommittee on Research and 
Technology will come to order.
    Good morning. Welcome to today's hearing titled 
``Nanotechnology: From Laboratories to Commercial Products.'' 
In front of you are packets containing the written testimony, 
biographies, and truth-and-testimony disclosures for today's 
witnesses. I now recognize myself for five minutes for an 
opening statement.
    Nanotechnology is an area of great promise for the future 
of the U.S. economy, the leaps and bounds in scientific 
knowledge base, and in terms of potential products and 
employment opportunities as the technology continues to mature. 
Many believe it has the potential to be the next industrial 
revolution, leading to significant social and economic impact. 
Nanotechnology is already prevalent in our lives; it is in 
sunscreens, and cosmetics, batteries, stain-resistant clothing, 
eyeglasses, windshields, and sporting equipment.
    The development of nanomaterials that are stronger, 
lighter, and more durable may lead to better technology for 
items such as bulletproof vests and fuel-efficient vehicles. 
Just recently, I learned of a new technology developed at 
Sandia National Laboratories and the University of New Mexico 
Cancer Center in which a hybrid particle, made up of a porous 
silicon nanoparticle core, contains small peptides that are 
targeted to proteins expressed specifically by cancer cells. It 
is an ideal vehicle to deliver the custom drug combinations 
needed for personalized medicine and may transform how we 
deliver antibiotics and antivirals.
    As a cardiothoracic surgeon and medical professional, I 
find this application of nanoscience to medicine not only 
fascinating but also having important implications for our 
Nation to keep medical costs down and subsequently may have 
some affect on national security and our economy.
    In 2013 the National Science Foundation nanotechnology 
investment supported 5,000 active projects over 30 research 
centers and several infrastructure networks for device 
development, computation, and education. It impacted over 
10,000 students and teachers. Approximately 150 small 
businesses were funded to perform research and product 
development in nanotechnology through the Small Business 
Innovation Research and Small Business Technology Transfer 
Programs. It is also my understanding that three new exciting 
directions are planned for 2015, including nanostructure 
composite materials, nanoscale optics, and photonics.
    Unfortunately, despite these promising activities funded 
directly by the National Science Foundation, the President's 
budget for key directorates that carry out nanotechnology 
research within the NSF's Research and Related Activities 
Account is disappointing with a $1.5 million overall decrease.
    On the other hand, the Frontiers in Innovation Research and 
Science and Technology, or FIRST Act, of which I am an original 
cosponsor, passed our Subcommittee this past March with 
increases to several key directorates that fund nanotechnology 
basic science research. In addition to the NSF, the National 
Nanotechnology Initiative, or NNI, is the U.S. Government's 
effort to coordinate the nanotechnology research and 
development activities of the federal agencies.
    While nanotechnology is not a new scientific field, it 
still remains an emerging, important, and relevant area. The 
House passed an NNI reauthorization bill in both 110th and 
111th Congresses only to see it die in the Senate.
    This hearing today provides us with an opportunity to get 
feedback on the future of NNI and have a serious discussion 
about the national priorities for this technology. The 
President's proposed budget for NNI in Fiscal Year 2015 is 
$13.3 million less than Fiscal Year 2013 and is estimated to be 
less than it spent in Fiscal Year 2014. These budget numbers 
are concerning, especially for an area of R&D that holds an 
important place in our Nation's economy and national security.
    I look forward to hearing from the witnesses and to a 
productive and fruitful discussion on U.S. nanotechnology 
investments, priorities, and policies. Again, thank all of you 
for joining us today.
    [The prepared statement of Mr. Bucshon follows:]

      Prepared Statement of Subcommittee on Chairman Larry Bucshon

    I would like to welcome everyone to today's Research and Technology 
Subcommittee hearing titled ``Nanotechnology: From Laboratories to 
Commercial Products.''
    Nanotechnology is an area of great promise h for the future of the 
U.S. economy, the leaps and bounds in the scientific knowledge base, 
and in terms of potential products and employment opportunities as the 
technology continues to mature. Many believe it has the potential to be 
the next industrial revolution, leading to significant social and 
economic impact. Nanotechnology is already prevalent in our lives; it 
is in sunscreens and cosmetics, batteries, stain-resistant clothing, 
eyeglasses, windshields, and sporting equipment. The development of 
nanomaterials that are stronger, lighter, and more durable may lead to 
better technology for items such as bulletproof vests and fuel 
efficient vehicles. This is especially important as gas prices continue 
to remain high.
    Just recently, I learned of a new technology (developed at Sandia 
National Laboratories and the University of New Mexico Cancer Center) 
in which a hybrid particle, made up of a porous silica nanoparticle 
core, contains small peptides that are targeted to proteins expressed 
specifically by cancer cells. It is an ideal vehicle to deliver the 
custom drug combinations needed for personalized medicine, and will 
transform how we deliver antibiotics and antivirals.
    As a cardiothoracic surgeon and medical professional, I find this 
application of nanoscience to medicine not only fascinating but also 
having important implications for our Nation's national security and 
economy, including ways to lower medical costs.
    In 2013, the National Science Foundation (NSF) nanotechnology 
investment supported 5,000 active projects, over 30 research centers 
and several infrastructure networks for device development, 
computation, and education. It impacted over 10,000 students and 
teachers. Approximately 150 small businesses were funded to perform 
research and product development in nanotechnology through the Small 
Business Innovation Research (SBIR) and the Small Business Technology 
Transfer (STTR) Programs. It is also my understanding that three new 
exciting directions are planned for 2015, including nanostructured 
composite materials, nanoscale optics, and photonics.
    Unfortunately, despite these promising activities funded directly 
by the NSF, the President's budget for key directorates that carry out 
nanotechnology research within NSF's Research and Related Activities 
Account (RRA) is disappointing, with a $1.5 Million overall decrease. 
On the other hand, the Frontiers in Innovation, Research, Science and 
Technology (FIRST) Act, of which I am an original co-sponsor, passed 
our Subcommittee this past March with increases to several key 
directorates that fund nanotechnology basic science research.
    In addition to the NSF, the National Nanotechnology Initiative 
(NNI) is the U.S. government's effort to coordinate the nanotechnology 
research and development activities of the federal agencies. While 
nanotechnology is not a new scientific field, it still remains an 
emerging, important and relevant area. The House passed an NNI 
reauthorization bill in both the 110th and 111th Congresses, only to 
see it die in the Senate. This hearing today provides us with an 
opportunity to get feedback on the future of NNI and have a serious 
discussion about national priorities for this technology.
    The President's proposed budget for NNI in fiscal year (FY) 2015 
($1,536.9M) is $13.3 Million less than FY2013 ($1,550.2), and is 
estimated to be less than what is spent for FY14 (1,537.5). These 
budget numbers are concerning, especially for an area of R&D that holds 
an important place in our nation's economic and national security.
    I look forward to hearing today's testimony and to a productive and 
fruitful discussion on U.S. nanotechnology investments, priorities, and 
policies. Again, thank you all for joining us today.

    Chairman Bucshon. I now recognize the Ranking Member, the 
gentleman from Illinois, Mr. Lipinski, for his opening 
statement.
    Mr. Lipinski. Thank you, Chairman Bucshon, and thank you 
for holding this hearing today on nanotechnology.
    It has been a little more than three years since this 
Committee last held a hearing on nanotech, so I am happy we are 
returning to one of my favorite topics.
    Federal investments in nanotechnology research have already 
led to job creation in my state and across the Nation, and I 
believe the potential for return on our relatively modest 
federal investment is many times what we have already 
witnessed. I am fond of saying I drank the nanotech Kool-Aid 
the first time I visited Chad Mirkin's lab at Northwestern 
University. I am very happy that we have someone from 
Northwestern here today.
    I was amazed by what could be done at the scale of a single 
atom. In nanotechnology there is now a branch of engineering 
that simply did not exist 26 years ago when I was getting my 
degree in mechanical engineering at Northwestern also. By 
controlling individual atoms, we can create new materials and 
products, and with that, companies and jobs.
    The Science Committee recognized the promise of 
nanotechnology early on-holding our first hearing close to 15 
years ago to review federal activities in the field. The 
Committee was subsequently instrumental in the development and 
enactment of the statute in 2003 that authorized the 
interagency National Nanotechnology Initiative, the NNI, as the 
Chairman spoke about.
    We have passed a widely supported bipartisan update to the 
NNI bill in the House three times since 2008. Unfortunately, 
all three times this bill has died in the Senate. I hope with 
the Chairman's help we will have an opportunity to take up an 
NNI reauthorization bill once again in this Congress, and who 
knows, maybe the fourth time will be the charm.
    I don't think the NNI requires major revisions. It seems to 
be working pretty well, but I do think there are opportunities 
to formalize some of the recommendations we have received in 
the last few years from PCAST and the National Academies on how 
to strengthen the program even further without any additional 
cost. These opportunities include ways to strengthen technology 
transfer and streamline the reporting requirements for the 
program. I welcome thoughts from our witnesses today on how we 
can continue to improve upon the existing program.
    Nanotechnology is a broad field encompassing much more than 
just material science or semiconductors. For instance, 
nanotechnology is beginning to help us understand biology at 
the cellular level. We are now seeing applications that were 
not even imagined 13 years ago when NNI was first created. The 
range of potential applications is broad and will have enormous 
consequences for electronics, energy transformation and 
storage, materials, and medicine and health, to name just a 
few. I am sure that we will hear about some of those 
applications from today's witnesses, including Mr. Ivie from F 
Cubed.
    Part of our discussion on nanotechnology must include the 
barriers and opportunities surrounding nanomanufacturing. I 
know that Dr. Persons will talk about some of the challenges 
the United States is facing in this area today, including a 
need for more U.S. involvement in international standards 
setting, continued sustained investment in this area, and a 
national vision for U.S. nanomanufacturing capability.
    Finally, I think it is also important to talk about the 
environmental, health, and safety, or EHS research, that must 
be part of any comprehensive nanotechnology research strategy. 
I know that Professor Hersam was part of a report on 
nanotechnology research directions that included a review of 
recommendations for nano EHS research and hope we can spend 
some time during the Q&A on this important topic.
    Once again, I am happy we are having this hearing today. I 
look forward to all the witness testimony and the Q&A. Thank 
you all for being here and I yield back.
    [The prepared statement of Mr. Lipinski follows:]

Prepared Statement of Subcommittee Ranking Minority Member Dan Lipinski

    Thank you Chairman Bucshon for holding this hearing today on 
nanotechnology. It has been a little more than three years since the 
committee last held a hearing on nanotechnology, so I am happy we are 
returning to one of my favorite topics. Federal investments in 
nanotechnology research have already led to job creation in my state 
and across the nation, and I believe the potential for return on our 
relatively modest federal investment is many times what we'vealready 
witnessed.
    I'm fond of saying that I ``drank the nanotech kool-aid'' the first 
time I visited Chad Mirkin's lab at Northwestern. I was amazed by what 
he could do at the scale of a single atom. In nanotechnology there is 
now a branch of engineering that simply did not exist 26 years ago when 
I was getting my degree in mechanical engineering. By controlling 
individual atoms we can create new materials and products, and with 
that, companies and jobs.
    The Science Committee recognized the promise of nanotechnology 
early on, holding our first hearing close to 15 years ago to review 
federal activities in the field. The Committee was subsequently 
instrumental in the development and enactment of a statute in 2003 that 
authorized the interagency National Nanotechnology Initiative--the NNI.
    We have passed a widely supported, bipartisan update to the NNI 
bill in the House three times since 2008. Unfortunately, all three 
times the bill died in the Senate. But I hope that with the Chairman's 
help we will have an opportunity to take up an NNI Reauthorization bill 
once again in this Congress. Who knows, maybe the 4th time will be the 
charm?
    I don't think the NNI requires major revisions. It seems to be 
working pretty well. But I do think there are opportunities to 
formalize some of the recommendations we have received in the last few 
years from PCAST and the National Academies on how to strengthen the 
program even further, without any additional costs. These opportunities 
include ways to strengthen technology transfer and streamline the 
reporting requirements for the program. I welcome thoughts from our 
witnesses today on how we can continue to improve upon the existing 
program.
    Nanotechnology is a broad field encompassing much more than just 
materials science or semiconductors. For instance, nanotechnology is 
beginning to help us understand biology at the cellular level. We are 
now seeing applications that were not even imagined 13 years ago when 
the National Nanotechnology Initiative was first created. The range of 
potential applications is broad and will have enormous consequences for 
electronics, energy transformation and storage, materials, and medicine 
and health, to name just a few examples. I am sure that we will hear 
about some of those applications from today's witnesses including Mr. 
Ivie from F Cubed.
    Part of our discussion of nanotechnology must include the barriers 
and opportunities surrounding nanomanufacturing. I know that Dr. 
Persons will talk about some of the challenges that the United States 
is facing in this area today including a need for more U.S. involvement 
in international standard setting, continued sustained investment in 
this area, and a national vision for a U.S. nanomanufacturing 
capability.
    Finally, I think it is also important to talk about the 
environmental, health, and safety--or EHS--research that must be part 
of any comprehensive nanotechnology research strategy. I know that 
Professor Hersam was part of a report on nanotechnology research 
directions that included a review and recommendations for nano-EHS 
research and hope we can spend some time during the Q&A on this 
important topic.
    Once again, I am very happy we are having this hearing today. I 
look forward to all of the witness testimony and the Q&A, and I thank 
you all for being here today. I yield back the balance of my time.

    Chairman Bucshon. Thank you, Mr. Lipinski. I now recognize 
the Ranking Member of the full Committee, Ms. Johnson, for her 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning.
    This morning, we are discussing nanotechnology. As a long-
time member of the Committee, I am proud that the Committee 
recognized a need for an increased level of investment and 
better interagency coordination in this area almost 15 years 
ago. That recognition led to the creation of the National 
Nanotechnology Initiative, or the NNI as it is called, which 
has invested nearly $20 billion in nanotechnology research and 
development since 2001.
    The investment in NNI is one of the reasons that the United 
States is a global leader in nanotechnology research and 
development. Unfortunately, like too many other research areas, 
our leadership position is now being challenged. In a 2014 
report on nanomanufacturing, which I am sure Dr. Persons will 
discuss this morning, the GAO reported that the United States 
is facing challenges to maintaining its leadership position in 
nanotechnology and nanomanufacturing. Several of our global 
competitors like the European Union and Japan are making 
significant and sustained investments in nanotechnology while 
we are busy debating on how much to cut our research agencies. 
If we are going to maintain competitiveness, then the United 
States needs to make strong and sustained investment in 
nanotechnology and enact federal policies that help technology 
and manufacturing development and play a central role in 
international standards development.
    While we need to strengthen our leadership position in 
nanotechnology, we should also recognize that there are 
opportunities to work with our global partners. One area for 
collaboration is the area of environmental, health, and safety 
research, or EHS research. Unlike the nanomanufacturing 
research, there is no obvious competitive advantage in EHS 
research. Instead, all global nanotechnology partners benefit 
from a greater understanding of potential environmental, 
health, and safety aspects of nanotechnology.
    As a former nurse, I recognize the need to understand and 
mitigate the potential risks to new technologies, including 
nanotechnology. Without a strong EHS research program on 
nanotechnology, we would be left with the uncertainties of 
surrounding potential risks for people and environments that 
are exposed to nanomaterials and nano-enabled products.
    In addition to concerns about public health and safety, I 
am worried that these uncertainties could also lead to 
unsubstantiated negative public perceptions about 
nanotechnology, which could have serious consequences for its 
acceptance and use. The NNI has always included activities for 
increasing understanding of the environmental and safety 
aspects of nanotechnology, but I believe that EHS research did 
not receive sufficient attention to funding for many years and 
I applaud the current Administration's increased emphasis on 
EHS. But I remain concerned about our new slow progress in this 
area of research.
    We need a strong nano EHS research program to protect the 
public and to ensure that any nanotechnology regulations will 
be grounded in science, not perception. I hope to hear from our 
witnesses today about their thoughts on this issue.
    And in closing, I am hopeful that we can work together to 
ensure that the United States remains the leader in 
nanotechnology and nanomanufacturing while working with our 
global partners.
    I want to thank the witnesses for being here and I want to 
thank you, Mr. Chairman. And I yield back the balance of my 
time.
    [The prepared statement of Ms. Johnson follows:]

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman. This morning we are discussing 
nanotechnology. As a long-time Member of this Committee, I am proud 
that the Committee recognized the need for an increased level of 
investment and better interagency coordination in this area almost 15 
years ago.
    That recognition led to the creation of the National Nanotechnology 
Initiative, or the NNI as it is called, which has invested nearly $20 
billion in nanotechnology research and development since 2001.
    The investment in the NNI is one of the reasons that the United 
States is the global leader in nanotechnology research and development. 
Unfortunately, like too many other research areas, our leadership 
position is now being challenged.
    In a 2014 report on Nanomanufacturing, which I am sure Dr. Persons 
will discuss this morning, the GAO reported that the United States is 
facing challenges to maintaining its leadership position in 
nanotechnology and nanomanufacturing. Several of our global competitors 
like the European Union and Japan are making significant and sustained 
investments in nanotechnology while we are busy debating how much to 
cut our research agencies.
    If we are going to remain competitive, then the U.S. needs to make 
strong and sustained investments in nanotechnology; enact federal 
policies that help technology and manufacturing development; and play a 
central role in international standards development.
    While we need to strengthen our leadership position in 
nanotechnology, we should also recognize that there are opportunities 
to work with our global partners. One area for collaboration is in the 
area of environmental, health and safety research or EHS research.
    Unlike with nanomanufacturing research, there is no obvious 
competitive advantage in EHS research. Instead, all global 
nanotechnology partners benefit from a greater understanding of 
potential environmental, health, and safety aspects of nanotechnology.
    As a former nurse, I recognize the need to understand and mitigate 
the potential risks to new technologies including nanotechnology. 
Without a strong EHS research program on nanotechnology, we will be 
left with uncertainties surrounding potential risks for people and 
environments that are exposed to nanomaterials and nano-enabled 
products. In addition to concerns about public health and safety, I am 
worried that these uncertainties could also lead to unsubstantiated 
negative public perceptions about nanotechnology, which could have 
serious consequences for its acceptance and use.
    The NNI has always included activities for increasing understanding 
of the environmental and safety aspects of nanotechnology. But I 
believe that EHS research did not receive sufficient attention or 
funding for many years.
    I applaud the current Administration's increased emphasis on EHS, 
but I remain concerned about our slow progress in this area of 
research. We need a strong nano-EHS research program to protect the 
public and to ensure that any nanotechnology regulations will be 
grounded in science not perception. I hope to hear from our witnesses 
today about their thoughts on this issue.
    In closing, I am hopeful that we can work together to ensure that 
the United States remains the leader in nanotechnology and 
nanomanufacturing while working with our global partners.
    I want to thank the witnesses for being here today. Thank you, Mr. 
Chairman and I yield back the balance of my time.

    Chairman Bucshon. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witnesses, a 
very distinguished panel. Our first witness today is Dr. 
Timothy Persons, Chief Scientist of the United States 
Government Accountability Office. He is also the Co-Director of 
the GAO Center for Science, Technology, and Engineering, a 
group of highly specialized scientists, engineers, 
mathematicians, and information technologists. He works with 
the GAO's chief technologist to lead the production of 
technology assessments for the U.S. Congress.
    Prior to joining the GAO, Dr. Persons has held key 
leadership roles in the national security community. In 2007 
Dr. Persons was awarded a Director of National Intelligence 
Science and Technology Fellowship focusing on computational 
imaging systems research. He received his bachelor's in physics 
from James Madison, a master's in nuclear physics from Emory 
University, and a master's in computer science and a Ph.D. in 
biomedical engineering from Wake Forest.
    Our second witness is Dr. Lloyd Whitman, Interim Director 
of the National Nanotechnology Coordination Office and Deputy 
Director of the Center for Nanoscale Science and Technology at 
the National Institute of Standards and Technology.
    Dr. Whitman received a bachelor's in physics from Brown and 
a master's and Ph.D. in physics from Cornell. After a National 
Research Council post-doctorate research fellowship at NIST, 
Dr. Whitman joined the research staff at the National Research 
Laboratory. At NRL, Lloyd was the head of the Surface 
Nanoscience and Sensor Technology Section. In addition to 
leading research at NRL, Dr. Whitman served as a Science 
Advisor to the Special Assistant to the Secretary of Defense 
for Chemical and Biological Defense and Chemical 
Demilitarization Programs.
    Our next witness is Dr. Keith Stevenson, Professor in the 
Department of Chemistry & Biochemistry at the University Of 
Texas at Austin. Dr. Stevenson is a well-established 
electrochemist, materials chemist, and nanoscientist with over 
145 referred publications, six patents, and five book chapters. 
He is the Director of the 38 million Center for Nano- and 
Molecular Science and Technology. He is also acting Thrust 
Leader on an 11.2 million DOE Energy Frontiers Research Center 
at UT Austin.
    In addition to being the State Director of the Welch 
Foundation Summer Scholars Program, he is one of the founding 
faculty members of a program now known as the Freshman Research 
Initiative at UT Austin.
    At this point I now recognize the Ranking Member Mr. 
Lipinski to introduce our next witness.
    Mr. Lipinski. Thank you.
    As a Northwestern alum, I am very excited to have a 
Professor from Northwestern University here this morning even 
though he has his Ph.D. from the University of Illinois.
    Dr. Hersam is a Professor--Yes, that is the Chairman's 
school.
    Dr. Hersam is a Professor of Material Science and 
Engineering Department, as well as being Director of the 
Materials Research Center. His interdisciplinary research group 
focuses on analyzing and manipulating nanomaterials at the 
atomic and molecular scale. Professor Hersam is a nationally 
recognized leader in research in nanotechnology, a member of 
several scientific societies, and winner of numerous teaching 
and research awards.
    In addition to his work at Northwestern, Dr. Hersam founded 
a company NanoIntegris that is a leading supplier of high 
purity semiconducting and metallic inks.
    It is my pleasure to welcome Dr. Hersam to our Committee 
today.
    Chairman Bucshon. And our final witness is Mr. Les Ivie, 
President and CEO of F Cubed, LLC. Mr. Ivie was also Founder 
and Chief Operating Officer of Gas Clip Technology, Inc. Prior 
to founding F Cubed, he was Chief Technology Officer at 
Honeywell International.
    Mr. Ivie was Senior Vice President and Chief Operating 
Officer of Zellweger Luwa AG in Switzerland. He was a Founder, 
Board Member, and later Chairman of the Board of Textillio AG, 
an Internet company based in Zurich, Switzerland. Mr. Ivie held 
a variety of positions at United Technologies Corporation.
     Mr. Ivie graduated from Portland State University with a 
bachelor of science and mathematics and a bachelor of science 
and economics from the University of Denver with a master's of 
business administration.
    I would like to thank all of our witnesses for being here. 
It is going to be an interesting hearing.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    At this point I now recognize Dr. Persons for five minutes 
to present his testimony.

       TESTIMONY OF DR. TIMOTHY PERSONS, CHIEF SCIENTIST,

         UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Persons. Chairman Bucshon, Ranking Member Lipinski, 
Ranking Member Johnson, and Members of the Committee, good 
morning.
    I am pleased to be here to discuss the ongoing transition 
of nanotechnology from the laboratory into commercial products, 
or also known as nanomanufacturing.
    As a reminder, nanotechnology is defined as the control or 
restructuring of matter at the atomic or molecular scale, 
about--a range of about 1 to 100 nanometers, the latter being 
about 1/1000 the thickness of a human hair.
    Last year, the Controller General of the United States 
convened a strategic forum on this topic, which brought 
together experts from a wide range of relevant backgrounds to 
discuss the status and implications of this issue. We recently 
issued a report on the forum, a portion of which I am covering 
in today's remarks.
    Specifically, my testimony will highlight how the United 
States compares with other countries in nanotechnology R&D and 
competitiveness, identify some key challenges to innovation, 
briefly present some key policy issues, and discuss two 
examples of public-private partnerships designed to promote 
U.S. innovation in nanomanufacturing.
    And I ask that Figure 1 be brought up on the screen.
    [Slide]
    Dr. Persons. This slide illustrates several examples of 
some nanoscale science discoveries in transition from the lab 
into real-world nanotechnology-enabled products. Moving from 
left to right, the first column of the figure contains examples 
of nanoscale components discovered by the basic science 
community. The second column contains new or enhanced 
prototypes enabled by the nano components, and the third column 
then shows new or improved products of the commercial sector 
which may require manufacturing at large-scale, that is either 
size and number.
    As a quick example, following the top row of the chart, 
research on nanoscale transistors enables more powerful and 
sophisticated semiconductor chips, which then result in 
lighter, faster, and more powerful computers and smartphones 
like what used to be a supercomputer I hold essentially in the 
palm of my hand because of nanotechnology. The experts at our 
forum told us that the United States likely leads in 
nanotechnology R&D today but the United States faces global-
scale competition. In terms of R&D funding levels, the United 
States is still considered the overall leader, yet is possibly 
lagging in public sector support in comparison to some other 
major nations. For scientific publications, the United States 
is considered the leader in quality, yet it terms of quantity 
has already been surpassed by China.
    Turning to U.S. competitiveness in nanomanufacturing 
itself, the four industry sectors we studied indicate that the 
United States remains the leader in some areas, namely 
nanomedicine and semiconductor design. On the other hand, 
experts said the United States has been challenged in 
semiconductor manufacturing, the development of nano-enabled 
concrete materials, as well as lithium-ion batteries for 
electric vehicles, even though a recent announcement by a major 
American manufacturer of electric vehicles to build a large 
battery production plant could reverse this latter assessment.
    Our forum participants identified several challenges, 
including significant global competition, the unintended 
consequences of prior off-shoring of manufacturing, direct 
foreign threats to U.S. intellectual property, and the fact 
that the United States currently lacks a holistic strategy for 
nanomanufacturing.
    Moreover, another major challenge is a key funding gap 
called the ``missing middle,'' which I hold up in Figure 2, 
which occurs between the proof-of-concept and production 
environment demonstration phases of the manufacturing 
innovation process. This challenge was a particular concern to 
our experts in terms of the barrier it represents to small and 
medium-sized U.S. enterprises where a good deal of innovation 
occurs.
    In terms of policy issues, forum participants said the 
United States could improve its competitive posture by pursuing 
one or more of the following three approaches: first, 
strengthen innovation across the U.S. economy by continuing 
and/or updating policies and programs which support innovation 
in general; second, promote innovation in U.S. manufacturing 
possibly in the form of public-private partnerships; third, 
design a holistic strategy for U.S. nanomanufacturing led and 
facilitated but not overly driven by the federal government.
    Insufficient efforts by the United States to participate in 
international development of basic nanotechnology standards and 
the need for a revitalized integrative and collaborative 
approach to environment, health, and safety issues were other 
policy considerations our participants identified. Two examples 
of public-private partnerships designed to address the 
``missing middle'' were identified in our study. The first is 
the Center for Nanomanufacturing Systems for Mobile Computing 
and Mobile Energy Technologies, or NASCENT, a manufacturing 
innovation ecosystem founded at the University of Texas at 
Austin in 2012. NASCENT is designed to partner with industry 
and create processes and tools for manufacturing nano-enabled 
components in the mobile and energy sectors, among others.
    The second is the College of Nanoscale Science and 
Engineering, or CNSE, in Albany, New York, established in 2004. 
CNSE is a precompetitive R&D prototyping and educational 
public-private partnership for advancing nanotechnology for the 
semiconductor industry. Equipped with state-of-the-art tools 
and partnered with a global consortium of the major computer 
chip manufacture, CNSE's collaborative work allows for the 
development of chips just short of mass production.
    In conclusion, based on the views of a wide range of 
experts, nanoscale control and fabrication are creating 
important new opportunities and challenges for our Nation. As 
such, our experts see potential benefit in pursuing forward-
looking strategies designed to help the global economic 
position of the United States as it moves further into the 21st 
century.
    Chairman Bucshon, Ranking Member Lipinski, and Members of 
the Committee--Ranking Member Johnson, excuse me--this 
concludes my statement. I am happy to answer any questions you 
may have.
    [The prepared statement of Dr. Persons follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Bucshon. Thank you, Dr. Persons.
    I now recognize Dr. Whitman for five minutes for his 
testimony.

                TESTIMONY OF DR. LLOYD WHITMAN,

        INTERIM DIRECTOR OF THE NATIONAL NANOTECHNOLOGY

           COORDINATION OFFICE AND DEPUTY DIRECTOR OF

        THE CENTER FOR NANOSCALE SCIENCE AND TECHNOLOGY,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Whitman. Chairman Bucshon, Ranking Member Lipinski, 
Ranking Member Johnson and Members of the Committee, it is a 
privilege to be here today to discuss nanotechnology and the 
U.S. National Nanotechnology Initiative, known as the NNI.
    As Dr. Persons noted, the field of nanotechnology aims to 
understand and control matter at sizes of about 1 to 100 
nanometers. A nanometer is one-billionth of a meter. If I 
reference a sheet of paper, it is about 100,000 nanometers 
thick, and a DNA double helix is about two nanometers in 
diameter. So nanotechnology involves working at the scale of 
atoms and molecules.
    The reason this size range is so interesting is because 
things this small often have properties completely different 
than both larger objects of the same material and the 
individual atoms and molecules within. By changing the size and 
composition of nanoscale materials, one can create things with 
unique properties that have a tremendous range of promising 
applications.
    Consider gold, for example. Bulk gold like that in jewelry 
is of course gold-colored and chemically inert, but gold 
nanoparticles, depending upon their size, may look pink or 
purple or red and can actually be used to catalyze chemical 
reactions. They can even be used to target and kill cancer 
cells. You can read about many other nanotech breakthroughs, 
including many aimed at improving our national security, at our 
Nano.Gov website.
    So how did the NNI get where it is today? In the 1990s, the 
tools to make and measure things on the nanoscale developed 
very rapidly, making the promise of nanotech increasingly 
clear. In response to this promise, the NNI was launched in 
2000 and authorized by Congress in 2003. There are now 20 
federal agencies actively participating in the initiative 
supported by R&D funding totaling over $1.5 billion per year.
    It is important to emphasize that the NNI is not a 
distinctly funded program with a centralized budget and 
management but rather a well-coordinated multiagency 
initiative. The NNI is coordinated through the Nanoscale 
Science, Engineering, and Technology Subcommittee of the 
National Science and Technology Council. The National 
Nanotechnology Coordination Office, which I direct, provides 
support for the Subcommittee and acts as the primary point of 
contact on the NNI, among other duties specified in the 2003 
act.
    The NNI functions as a collaborative effort of the 
participating federal agencies, thereby leveraging the funding, 
avoiding duplication, and providing an effective way for these 
agencies to work towards common goals and objectives. These 
goals are outlined in the NNI's strategic plan, which was just 
updated in February and are highlighted-- and budget details, 
along with research accomplishments and plans, are highlighted 
every year in the NNI supplement to the President's budget.
    Federal nanotechnology innovation in the United States is 
strong. We are advancing research, developing and maintaining 
the U.S. workforce and infrastructure, supporting responsible 
development, and fostering commercialization. The most recent 
reviews of the NNI by the National Nanotechnology Advisory 
Panel and by the National Academies agree with this assessment. 
However, there is always room for improvement.
    This year's updated strategic plan describes a number of 
ways federal agencies will further strengthen the NNI laying 
out specific interagency objectives under each of the goals. 
The plan calls out the importance of the nanotechnology 
signature initiatives, which agencies collaboratively 
established to spotlight areas of national significance that 
can be advanced more rapidly through focused, coordinated 
research. It also introduces revised budget categories called 
program component areas, which have evolved over the years as 
the field has matured.
    The sustained strategic federal investment in 
nanotechnology, combined with strong private sector 
investments, has made the United States the global leader in 
nano. For example, it is estimated that in 2012 U.S. companies 
invested over $4 billion in nanotech R&D, far more than 
investments made by companies in any other country. Although 
the annual federal investment is relatively modest in 
comparison, it plays a very different role, namely supporting a 
critical pipeline of foundational research innovations that 
will form the seeds for future industry investment. The NNI 
also demonstrates the government's long-term commitment to the 
field, very important to sustaining the private sector support 
needed to bring nanotech products from lab to market.
    The 21st century Nanotechnology Research and Development 
Act of 2003 has provided an excellent framework for the 
coordination and oversight of the NNI. It has brought federal 
agencies together to develop and implement an efficient and 
effective national strategy for nanotech R&D, including a 
robust, well-coordinated program of environmental health and 
safety research needed to ensure that new nanotech products are 
safe.
    In conclusion, the NNI has sustained vital support for 
fundamental groundbreaking research, development, 
infrastructure, and education and training, programs that 
collectively constitute a major U.S. innovation enterprise. It 
is essential that the United States continue to lead the way. 
The Nation's economic growth and global competitiveness depend 
on it.
    So I thank the Chairman and the Members of the Committee 
for the opportunity to appear before you today and I would be 
pleased to answer any questions.
    [The prepared statement of Dr. Whitman follows:]

    [GRAPHIC] [TIFF OMITTED]     

    Chairman Bucshon. Thank you, Dr. Whitman.
    I now recognize Dr. Stevenson for five minutes to present 
his testimony.

          TESTIMONY OF DR. KEITH STEVENSON, PROFESSOR,

            DEPARTMENT OF CHEMISTRY & BIOCHEMISTRY,

               THE UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Stevenson. Thank you, Chairman. And on behalf of the 
State of Texas and the University of Texas at Austin, I am 
happy to represent and provide testimony today on the 
nanotechnology state of affairs.
    You have asked me to summarize the current state of R&D in 
the area, as well as provide future prospects. In addition, as 
Lloyd just spoke about, talk about the details and the impact 
of the National Nanotechnology Initiative and what it has done 
over the last 14 years.
    I also have been asked to talk about the importance of the 
federal fundamental funding in this area, as well as how my 
university has contributed to the STEM-based initiatives and 
growth of the nanotechnology workforce.
    First, I would like to address the importance of the 
nanotechnology initiative. I myself started my career in 2000 
and grew up with the growth of this program. I think it is safe 
to say now this program has been assessed and reviewed and 
measured with many different types of quantitative outcomes, 
and it is clear to say that it has been very successful across 
many levels. In particular, I would say most importantly 
bringing fundamental new knowledge, new understanding to the 
area. The growth of--and establishment of over 50 journals 
dedicated to nanotechnology and science across many different 
subdisciplines, you are starting to lose count with that.
    Additionally, the amount of infrastructure that has been 
built up across the Nation, every national lab has typically a 
subset of dedicated nanotechnology and nanofabrication tools. 
They also have many large-scale universities that interact with 
both national labs but also with other state institutions like 
the University of Texas at Austin that facilitate interactions 
not only from national labs but also with new industries.
    Also, the training of the nanotechnology workforce, without 
the establishment of infrastructure on this scale, it is clear 
to say that we have really dedicated, well-trained staff that 
help enable the science based around the broad context of 
nanotechnology in this area.
    The importance of continually investing in fundamental 
research is hard to describe in simple terms, but really I 
think what you can see from the past developments in the area 
is that the growth of this field has really accelerated things 
on many levels, not only just from the fundamental 
understanding like I said but the connections that it makes to 
the next level. It was talked about the ability to make new 
discoveries, but there does rely in some sense a continued 
investment at the next level to bridge the gap, as was 
highlighted by the GAO, to be able to transition those 
fundamental discoveries into actually new technologies, 
innovations, and products that we can then lead to the 
productivity of new areas.
    There are several fundamental questions that we would like 
to be able to address. For instance, can we--we still need to 
figure out how we can perfect the synthesis and fabrication of 
precise multifunctional structures that really create new 
technologies. We don't really know how to scale nanoscience 
right now. It has been very costly in the sense and it is not 
very efficient.
    Additionally, at UT Austin in particular, the ability to be 
able to train students in this area, we have invested in 
several different initiatives at many different levels. One is 
to really hook students at the very earliest level at STEM 
education, so what we could do is we recruit students at the 
freshman level and put them into the research lab and expose 
them to the concepts of nanoscience and technology. We have 
been able then to then escort them through a two-year program 
which then they then transition into more advanced science and 
engineering labs. And then from that they then typically are 
encouraged and given fellowships and internships at the next 
level to then go to graduate school in the STEM-based areas.
    Additionally, at UT Austin we have established a core of--a 
suite of user instrumentation that has allowed us to train 
hundreds if not thousands of students in the area of 
nanoscience and technology. We have a graduate level portfolio 
program that gives them certification in the area. It is not a 
degree-granting program but it allows them to really work 
interdisciplinary across as many as 14 different departments to 
be able to really foster nanoscience.
    The outcome of this is that over 120 of these students are 
now at many levels, academic institutions, national labs, 
startup small businesses based on what they have learned as 
graduate students, and work for the government agencies.
    And with that I would like to conclude and thank everyone 
for the opportunity to be able to testify on behalf of the 
State of Texas. Thank you.
    [The prepared statement of Dr. Stevenson follows:]]

    [GRAPHIC] [TIFF OMITTED]     

    Chairman Bucshon. Thank you very much, Dr. Stevenson.
    Dr. Hersam, you are recognized for five minutes. By the 
way, I graduated from the University of Illinois, so welcome.

            TESTIMONY OF DR. MARK HERSAM, PROFESSOR,

         DEPARTMENT OF MATERIALS SCIENCE & ENGINEERING,

       MCCORMICK SCHOOL OF ENGINEERING & APPLIED SCIENCE,

                    NORTHWESTERN UNIVERSITY

    Dr. Hersam. Very glad to hear it.
    On behalf of Northwestern University, I would like to thank 
Chairman Bucshon, Ranking Member Lipinski, Ranking Member 
Johnson, the entire Subcommittee on Research and Technology for 
the opportunity to participate in today's hearing.
    I am currently Professor of Material Science and 
Engineering, Chemistry, and Medicine, and Director of the 
Materials Research Center at Northwestern University. My 
research group studies and develops nanomaterials for use in a 
wide range of technologies, including electronics, 
photovoltaics, batteries, catalysis, and bioimaging.
    A significant portion of our research has been patented and 
commercialized, including our work on carbon nanomaterials that 
serve as the basis of a startup company that I cofounded called 
NanoIntegris. I have also been deeply involved in the 
development of education and outreach activities based on 
nanoscience and nanotechnology.
    The vast majority of my research has been funded by the 
National Nanotechnology Initiative. While much of this research 
focuses on applied technologies, the systematic application 
developments have been punctuated by discontinuous 
unanticipated breakthroughs.
    Therefore, while I strongly support the emergence of 
applied nanotechnology research funding, nanoscience remains an 
extremely fertile ground for discovery and therefore a 
diversified federal funding portfolio that includes strong 
support for fundamental research is critical to realize the 
full potential of nanotechnology. In particular, an expansion 
of the National Science Foundation Nanoscale Science and 
Engineering Centers would foster fundamental research, bring 
new discoveries, and accelerate innovation in nanotechnology 
education and outreach.
    With its ability to impact diverse and interdisciplinary 
problems in medicine, health, environment, water, energy, 
catalysis, electronics, photonics, magnetics, and 
infrastructure, nanotechnology touches essentially all 
technological sectors and will continue to impact economic and 
job growth for the foreseeable future. In my role as Co-Chair 
of the National Science Foundation's sanctioned global study 
entitled, ``Nanotechnology Research Directions for Societal 
Needs in 2020,'' it is apparent that this opinion is now widely 
held globally leading to substantial investments in 
nanotechnology by governments throughout the industrialized 
world.
    Consequently, to maintain American global competitiveness 
and fully realize nanotechnology applications, sustained and 
predictable support of the National Science Foundation 
Nanosystems Engineering Research Centers and related applied 
research centers across all funded agencies would be required. 
In addition, the National Nanotechnology Infrastructure Network 
should be reinstated to provide regional hubs and enable 
universal access to nanotechnology infrastructure.
    The ultimate judge of the utility of any technology is its 
ability to succeed as a commercial product in the marketplace. 
Towards that end, the Nanoscale Science and Engineering Center 
at Northwestern University has launched 14 startup companies in 
diverse technologies ranging from biomedical diagnostics to 
nanoelectronic materials.
    The company that spun out of my lab, NanoIntegris, is among 
those 14 startups. In its early stages, NanoIntegris benefited 
significantly from federal funding in the form of small 
business innovation research grants that supported the scale-up 
of our carbon nanomaterial technology. By accelerating our 
technical milestones, federal funding allowed NanoIntegris to 
more quickly focus on business development, ultimately growing 
revenue and creating jobs. Expansion of the Small Business 
Innovation Research program will thus enable more 
nanotechnology startup companies to negotiate the so-called 
Valley of Death.
    Furthermore, reforms targeting improved efficiency of the 
United States Patent and Trademark Office, where I have 
consistently experienced waits of four to five years for a 
nanotechnology patent be issued, will allow valuable 
intellectual property to be secured quickly, thereby reducing 
commercialization risks and accelerating economic growth.
    It is well documented that the United States is trailing 
many other industrialized nations in STEM education. While this 
problem is multifaceted with no simple solution, the situation 
is certainly improved when the most talented American students 
are inspired to pursue careers in science and engineering. In 
that regard, the incorporation of nanotechnology content into 
education and outreach efforts has been exceedingly successful.
    For example, under the support of the National Science 
Foundation, I incorporated nanotechnology into our materials 
science and engineering curriculum, resulting in a doubling of 
our domestic undergraduate population. From the perspective of 
commercialization, the Small Business Evaluation and 
Entrepreneur Program has united science, engineering, and 
business students in the development of business plans that 
have helped spawn multiple startup companies from Northwestern 
University.
    At the graduate level, the National Science Foundation, the 
National Defense Science and Engineering Graduate Fellowship 
Programs have been superlative at recruiting and retaining the 
top domestic science and engineering talent. Therefore, beyond 
its clear successes in producing significant discoveries and 
fostering innovation, the National Nanotechnology Initiative 
has proven to be one of the best federal programs for enhancing 
STEM education and thus American global competitiveness.
    In conclusion, I would like to thank you again for this 
opportunity and your ongoing support of nanotechnology 
research, education, and commercialization. Thank you.
    [The prepared statement of Dr. Hersam follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Bucshon. Thank you, Dr. Hersam.
    I now recognize Mr. Ivie for five minutes to present his 
testimony.

    TESTIMONY OF MR. LES IVIE, PRESIDENT & CEO, F CUBED, LLC

    Mr. Ivie. Chairman Bucshon, Ranking Member Lipinski, and 
honorable Members of the Subcommittee, my name is Les Ivie and 
I am President and CEO of F Cubed, a company engaged in the 
commercialization of molecular detection technology for the 
rapid identification of pathogenic bacteria such as MRSA in 
wounds, Listeria in food--in contaminated foods, and E. coli in 
water samples. Our particular technology rests on exclusive of 
licenses obtained from the University of Notre Dame in South 
Bend, Indiana, as well as the Israel Institute of technology in 
Haifa, as well as several in-house patented inventions.
    Our investors have been extremely generous. However, we 
would not exist today if the underlying science behind our 
technology had not found support from the National Science 
Foundation or the National Nanotechnology Initiative.
    F Cubed is not a direct recipient of any federal funding. 
However, the University of Notre Dame has received 
approximately $3.9 million in federal grants that were 
specifically used to develop our technology. I would 
respectfully suggest that funding basic research in an academic 
environment it is a good social and financial investment. 
Entrepreneurs will pursue and fund these technologies assuming 
that the economic environment is supportive, human resources 
are available, and regulatory obstacles remain manageable.
    With regard to human resources, STEM education is of 
critical importance to F Cubed. In the field of nanotechnology, 
the availability of well-educated employees is critical to 
every company. STEM graduates come in at least two varieties. 
The typical STEM graduate is an individual with a bachelor, 
master, or doctoral degree.
    However, there is another type of STEM graduate that is 
important and often forgotten in this educational debate. In 
the area of nanotechnology there are valuable two-year programs 
that produce individuals with associate degrees. The NSF-
supported Nanotechnology Applications and Career Knowledge 
network, or NACK, is a good example of such a program. These 
two-year programs are important because they graduate 
individuals that have knowledge and capability to operate and 
prepare robotic and electronic equipment that is used to 
manufacture nanotechnology products.
    STEM education is not monolithic. It is critical to support 
both traditional four-year and advanced degree programs, as 
well as two-year programs that produce the technicians that 
actually operate production lines for nanotechnology products.
    F Cubed is an advisory member of NSF NACK and is fortunate 
enough to have a two-year nanotechnology program offered by Ivy 
Tech Community College in South Bend, Indiana. It is the only 
such program in Indiana. Many states have no comparable 
programs whatsoever. This deficiency is absolutely worth 
correcting.
    F Cubed has exclusive licenses with two prestigious 
academic institutions and significant experience in identifying 
technologies and negotiating contracts with technology transfer 
offices. As an experienced licensee, we can state that the most 
challenging barrier to technology transfer is the time consumed 
in concluding negotiations. It is undeniable that startups are 
the engine that converts intellectual property into 
commercially interesting products. Startups license and 
commercialize new ideas and de-risk emerging technologies.
    With a few adjustments in the enabling language of grants, 
the federal government could reduce a major obstacle associated 
with technology transfer, thus ensuring that recipients are 
incentivized to quickly commercialize intellectual property and 
get it into the hands of companies willing to make a 
development risk benefiting the licensor and licensee, 
benefiting taxpayers who will see a greater and faster return 
on their tax dollars, and bolstering the economy at large.
    With regard to regulations, the materials used in 
nanotechnology are often new and exotic. Nanomaterials are used 
in minute quantities and are often so expensive the companies 
are economically incentivized to use as little as possible and 
absolutely minimize waste. Life science community benefits from 
an existing array of laboratory material safety practices, as 
well as good manufacturing practices that are not only 
customary within the industry but required by federal agencies 
such as the U.S. Food and Drug Administration and the U.S. 
Environmental Protection Agency.
    F Cubed strongly supports objective and thoroughly peer-
reviewed scientific investigations into the potential impact 
that nanomaterials may have on health and the environment under 
the guidance of the National Science Foundation or programs 
such as the Unregulated Contaminant Monitoring Rule process 
established by the U.S. Environmental Protection Agency. It 
maybe that the quantity of nanomaterials in the environment is 
so low that additional regulation is unnecessary beyond current 
industry safety practices.
    The United States is a worldwide leader in nanotechnology. 
Our national approach to regulation must be rational and 
objective, not driven by misunderstanding of the materials in 
question or unsubstantiated fears.
    In conclusion, nanotechnology is important to our 
universities, businesses, and consumers, many of whom will 
advance--will benefit from advances in medicine, food safety, 
and a cleaner environment. Federal funding is a large component 
of basic research and translation of such research into 
products by privately financed companies must be faster and 
more deliberate if we are to maintain our worldwide lead. It is 
critical that qualified technicians, engineers, and scientists 
emerge from STEM programs, and finally, regulation must be 
informed and intelligent. Safety is paramount.
    Thank you for your support of nanotechnology.
    [The prepared statement of Mr. Ivie follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Bucshon. Thank you, Mr. Ivie, for your testimony 
and all of the witnesses for their fascinating testimony.
    I want to remind the Members that the Committee rules limit 
questioning to five minutes and the Chair at this point will 
open the round of questions. I recognize myself for five 
minutes.
    First, Dr. Whitman, according to the President's 2015 
National Nanotechnology Initiative supplement, the proposed 
Fiscal Year 2015 NNI budget is $1.537 billion, which is $1 
million less than the estimated Fiscal Year 2014 spend amount 
and $13 million less than what was spent in Fiscal Year 2013. 
How can we remain competitive with flat or decreased funding?
    Dr. Whitman. So, first, let me comment that historically 
the actual budgets when they are reported are--can be quite a 
bit larger than that in the request. Many of the agencies, 
including the Department of Defense and even many programs 
within NIH and NSF and DOE aren't specifically--aren't nano-
specific solicitations such that at the end of the process nano 
tends to be very competitive in competing for funds so that 
when the cross cut is done, it may in fact turn out that the 
nanotechnology budget may even have increased.
    So generally my comment would be that nanotechnology has 
continued to be quite competitive in solving problems and 
leading to funding in the current very tight budget 
environment.
    Chairman Bucshon. Yes, that makes sense.
    Mr. Ivie, in your written testimony you write that our 
national approach to regulation of nanotechnology must be 
rational and objective and not driven by misunderstanding of 
materials in question or by unsubstantiated fear. What type of 
leadership and priorities should be coming from the federal 
government regarding research on the environmental and safety 
impacts of nanotechnology?
    Mr. Ivie. I think the--excuse me, the U.S. Environmental 
Protection Agency has a process which I refer to in my written 
testimony as UMCR, the Unregulated Contaminant Monitoring Rule, 
which has been very effective in identifying potential 
contaminants in the environment and has been very deliberate in 
the way they approach this problem, much as they do with some 
of the things we look for such as E. coli, Listeria, and 
terracoccus. That is a good starting place for regulation of 
the materials that we use I think. It has been very deliberate 
and they relied on scientific processes and scientific 
contribution to that so I think that is probably the best place 
to start.
    Chairman Bucshon. Thank you.
    And as a physician, anyone want to comment? I was really 
interested in reading in the press about the gold nano 
particles you mentioned Dr. Whitman--being attached and used 
for anticancer therapy. I was really excited about the 
possibility of micro-targeting cancer because, as a 
cardiovascular surgeon, we macro-targeted it by removing it. 
But obviously that doesn't cure cancer in many aspects; for 
example, lung cancer, even in earlier stages, there is still a 
percentage of people that eventually do not survive their 
cancer even though there is no detectable cancer in the body at 
the time. Does anyone want to comment about the future of that?
    Dr. Hersam, I see you--I mean I--that is an exciting area. 
And, Dr. Persons.
    Dr. Hersam. Yes. I think the opportunity for nanomaterials 
in this regard is the fact that in one particular material you 
can control multiple properties concurrently, so we can 
functionalize nanoparticles with a particular therapeutic 
agent. You can also functionalize it with a species that will 
direct where the agent will be delivered, and then you can have 
an external trigger such as an optical trigger, which can tell 
you exactly when the drug will be released. And I think it is 
that temporal control or time control of the release which 
gives you the opportunity to give clinicians a new knob to turn 
to realize new therapies, more effective therapies.
    Chairman Bucshon. So in cancer cells is there a surface 
protein or something that you target? Is that how it works?
    Dr. Hersam. You can do it in that way. You can take 
advantage of differences in the pH or the local acidity of the 
environment. It doesn't mean it is a triggering release. Or you 
can have an external trigger, which would be dictated by the 
clinician.
    Chairman Bucshon. Dr. Persons.
    Dr. Persons. Yes, Mr. Chairman. We did do a profile on 
nanotherapeutics as part of our study and we did look at one 
particular group, but I would just add to what Dr. Hersam was 
saying. There is some exciting work on functionalizing these 
nanoparticles. First of all, we will be able to just make them 
with pristine accuracy down to that scale and even design them 
so that they do have sort of a Trojan horse effect if you will 
uptake into the cancer or the malignant cells. So the highly 
targeted nature of that is very exciting.
    Thank you.
    Chairman Bucshon. Anybody else have any comments on that?
    If not, then I yield to Mr. Lipinski for five minutes for 
his line of listening. Thank you.
    Mr. Lipinski. Thank you.
    I just wanted to start out by talking about a potential 
reauthorization of NNI, which, as I mentioned in my opening 
statement, we haven't done since 2003. I just want to start by 
asking any recommendations that anyone has of--starting with 
Dr. Whitman, anything you would like to see in a 
reauthorization of NNI?
    Dr. Whitman. So as I commented in general, we think that 
the 2003 act is fairly good. We have I think discussed in the 
past with a number of the Members one of the peculiar aspects 
of it is that there are actually multiple assessments called 
for in that act on different timescales and on different 
timescales than our other reporting. So we are--we have both a 
National Nanotechnology Assessment Panel and a National 
Research Council Panel on different timescales plus annual 
budget supplements and triennial strategic plans. So as the 
director of the office responsible for all of that, it is 
somewhat of a perpetual cycle of preparing for a review, 
responding for a review, and so having a somewhat more 
efficient schedule for those and perhaps not as much redundancy 
would be helpful.
    Mr. Lipinski. Thank you.
    Does anyone else have any recommendations?
    Dr. Hersam. Yes. I mean what I would say is if we look at 
the maturity of nanotechnology, it is tempting to say there are 
winners and we should invest in those winners and really 
develop technologies to a higher level and I think that that 
should happen. However, nanoscience itself remains a fertile 
area for breakthroughs, unanticipated new technologies. And so 
I think a diversified portfolio both on the fundamental 
research side and on the applied side is critical to take 
advantage of the full potential of this field.
    Mr. Lipinski. Thank you.
    Dr. Stevenson?
    Dr. Stevenson. Yes. I would like to comment.
    We had an NNI site, one of these infrastructure 
nanotechnology network sites at our Pickle Research Campus that 
is home of the Materials Research and Engineering Center, and 
they were part of the NSF last round of funding and they 
decided not to fund any of the new NNI sites. And this had 
quite an impact on our local campus just being able to bridge 
the gap so that we have a lot of facilities that need care and 
feeding, and also there is a lot of large user base with 
dedicated staff scientists. And without that continued funding, 
then there is bridge funds essentially that are needed in order 
to keep that operational.
    The other thing to recognize is that a lot of this 
infrastructure that has--like these networks that have been 
built up, now there are several other new initiatives that 
actually are intertwined with the development and discoveries 
made in nanotechnology such as materials genome, the BRAIN 
Initiative, and a few others, mesoscale science in particular 
with the Department of Energy. Those types of new initiatives 
actually rely on a lot of the infrastructure and resources that 
were established by the NNI over the last 13 years.
    Mr. Lipinski. Thank you.
    Dr. Persons?
    Dr. Persons. Thank you, sir. I just would follow up. GAO in 
past work in looking at the NNI of course encourages a risk 
management-based approach on nano environment, health, and 
safety issues, so just would encourage based on our past work 
focus on that, although again in the same mode that Mr. Ivie 
was talking about in terms of a reasonable regulation type 
domain.
    I would also just echo what our study found, one of the 
large emphases on the need for international standards on these 
things as it moves into the commercial sector. Thank you.
    Mr. Lipinski. Thank you.
    I want to move on to technology transfer that I think is 
critical. I know, Dr. Hersam, when you were starting your 
company NanoIntegris that you applied and received SBIR grants, 
which you talked about. Can you talk about the importance of 
the SBIR program? And I will start with you and see if anyone 
else has any comments about what can be done to improve 
technology transfer when it comes to nanotech.
    Dr. Hersam. Yeah. So I would say that the SBIR program has 
been absolutely critical. In the very early stages it allows 
prototype developments. I think that is key in order to get 
additional private capital injected into nanotech companies. 
The Phase 2 funding is especially important for going to the 
next level, which is often the scale-up level. The scale-up is 
critical if you want to get your product to a larger market.
    I think there is an opportunity to reassess the Phase 3 
program. Often when you are entering into Phase 3 you approach 
this valley of death where if the company doesn't get a 
significant injection of capital, it can perish at that stage, 
and I think there is a lot of companies that are suffering at 
that moment. A little bit more investment from the federal 
government there would bring those to a profitable level and 
that of course would lead to economic growth.
    Mr. Lipinski. Anyone else want to--okay.
    I will yield back.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Collins for five minutes for his line 
of questioning.
    Mr. Collins. Thank you, Chairman Bucshon.
    Dr. Whitman, I am from western New York. Cornell University 
has been a big participant in the NNIN, and recently their 
funding has come to an end, as we have--now looking at the next 
gen. I just wonder could you help the Committee understand a 
little bit more about where the next generation NNIN stands? 
And I believe there was some proposals you were asking, you got 
a couple of groups that submitted but neither one was selected.
    And I know our big concern in New York is the State matches 
the funds that come out of the NNIN. And as Dr. Stevenson said, 
there is infrastructure there and you just can't cut it off and 
then expect it to reappear if there is even a six month delay. 
And so, you know, on behalf of Cornell University and others, I 
would like to better understand where that initiative stands 
and is there a basic understanding you can't just turn the 
spigot off and expect to turn it back on six months later.
    Dr. Whitman. So, unfortunately, although the NNCO is hosted 
by NSF, I am actually not part of the NSF organization so that 
is really a question that you would have to ask NSF leadership. 
I can briefly comment on what they have stated publicly, which 
is that the program is important and they are, actually 
recently had a ``Dear Colleague'' letter soliciting advice on 
how best to proceed with the program, so it is not--I think the 
intention from NSF appears to be to continue the program in 
some form. So, you know, I would be happy to take the question 
for the record to NSF and get a response but----
    Mr. Collins. Yeah, maybe if you could.
    Dr. Stevenson, do you have any other comment as you have 
witnessed this firsthand?
    Dr. Stevenson. Yeah. I mean it is a little bit--with all 
the pressure with the cuts and the deficit, especially with new 
centers, like there was encouragement to actually diversify and 
create other nanoscale research and engineering centers. Maybe 
that is not going to be the best way to go if we already have 
these established networks because these are serious 
investments. The--so there needs to be some pushback, I think a 
little bit to some of these agencies to say, hey, you already 
invested in this. You need to continue to do so. You can't just 
leave these people hanging.
    Mr. Collins. Well, and right now I think, you know, time is 
of the essence.
    Dr. Stevenson. Yeah, it--and this is really impacting our 
UT campus, our resources as well.
    Mr. Collins. So is there anything you could suggest that we 
could do on this Committee or in Congress to try to expedite 
this black hole that appears to be there?
    Dr. Stevenson. Just to recognize that these resources just 
can't be cut off and that there are people behind them that 
actually enable science, other funded initiatives and the 
growth of the technology base. So at the NNIN site in Texas 
they are--have several companies, over 50 that use this 
facility on a daily basis, and those companies need that 
access, too, especially the small companies.
    Mr. Collins. Well, you know, again, Cornell shares that 
concern and so do I, so, you know, we will have to see what we 
might do to at least ask more questions and understand this is 
a resource that just can't be turned off and then turned back 
on.
    With that, Chairman, I yield back.
    Chairman Bucshon. Thank you.
    I now recognize Ms. Johnson for her five minutes for her 
line of questioning.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. Whitman, the National Nanotechnology Initiative has had 
a workforce development component since it was established. 
Could you please speak to the efforts on education and 
workforce development and also talk a little bit about the 
education outreach activities at the elementary or secondary 
level and how the NNI agencies such as the National Science 
Foundation is providing resources for teachers or informal STEM 
educators so they can effectively integrate nanotechnology 
concepts into the classrooms and activities?
    Dr. Whitman. I will do my best.
    So this is not an area I have deep personal expertise, but 
I can tell you that nanotechnology--the federal government has 
worked hard to make nanotechnology a part of the federal-wide 
K-12 and postsecondary STEM education strategy. The NSF and the 
Department of Education have had a number of programs to do 
that. We in the NNCO do outreach at a variety of places. I 
actually personally attended the booth at the Science and 
Engineering Festival, which was a lot of fun.
    And there is also--NSF and other agencies support the 
National Nanomanufacturing Network, which also supports 
education, and there is also EHS-related work encouraging 
people to learn about the safe use of nanoparticles.
    Again, if you want to take that question for the record and 
I can provide additional information.
    Ms. Johnson. Okay. Thank you.
    I am concerned about the turning off and on, as just been 
mentioned, and also in any kind of sustainability of how we can 
make sure there is a workforce, a research group in the future. 
Does anybody else on the panel have any comments?
    Dr. Hersam. Yeah. I am happy to comment on that.
    So the National Science Foundation Nanoscale Science and 
Engineering Centers would devote about, you know 1/4 to 1/3 of 
their budget to precisely STEM education and outreach. These 
programs were outstanding because you would have the latest in 
research impacting work being done at K-12 level, general 
public outreach, undergraduate level. And these centers were 
designed to run for ten years, and the problem is after those 
ten years you have all this momentum and then, as you 
mentioned, the spigot is turned off and that gap in funding 
really decimates those programs.
    And consequently, having sustained and predictable funding 
will not only influence the fundamental research but perhaps 
more importantly STEM education and therefore American 
competitiveness.
    Ms. Johnson. Thank you.
    What about the gentleman, Mr. Ivie, the Notre Dame 
graduate, do you see any deficit in your work in the future for 
talent?
    Mr. Ivie. Yes. We see deficits in a couple of areas. One of 
them is in my written testimony and in my spoken testimony I 
highlighted the impact that people with associate's degrees 
have on our business. For us this is important because these 
are the people that actually operate our production lines and 
these people are hard to come by right now, and that is 
primarily because the NSF program, NACK, the Nanotechnology 
Applications and Career Knowledge Network is just starting to 
take off.
    Typically in our business we hire people with bachelor's 
degrees, master's degrees, Ph.D.'s, and while they may be 
interested in--for working on a production line with a robot 
that is applying nanomaterials to our product for a few weeks, 
this isn't something they want to make a career out of. So this 
is one thing we are particularly concerned about.
    I think the other thing we are concerned about in general 
is the issue that I am sort of hearing from some of the other 
testimonies, which is spreading federal government money over 
too much territory. As an entrepreneur, we view our business 
responsibility as taking this technology and commercializing 
it. We don't see it as the university's responsibility to do 
that for us. That is why we go out and find private individuals 
with a lot of money. Now, of course, Uncle Sam has a lot of 
money as well but that probably should be used somewhere else 
and I think that is also something that needs to be dealt with 
on the technology transfer side.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Johnson from Ohio for his line of 
questioning.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you for 
having this hearing today.
    Dr. Whitman, in your written testimony on the NNI you 
write, ``there is always room for improvement, as also 
suggested by the National Nanotechnology Advisory Panel and the 
National Academies.'' Could you please give us an idea of which 
specific areas you think need improvement and why they are 
necessary? Can you expand on that, please?
    Dr. Whitman. Sure. So one of the areas, you know, we have 
been working hard at is improving our interface to the business 
community, both to provide resources to them and so that we can 
hear them as stakeholders. So, for example, we heard mention 
about the availability of things like the SBIR program so we 
have in our office a full-time industrial liaison person now 
and we have taken a number of steps to try to make our website 
a better resource for industry and interface with groups like 
the Nanotechnology Business Commercialization Alliance to make 
sure they know who they need to talk to, bring people together, 
and support their needs as an industry community. That is one 
example.
    Mr. Johnson. Okay. All right. Thank you.
    Dr. Hersam, in your testimony you write that you ``have 28 
nanotechnology patents pending, which implies that my 
commercialization attempts have largely occurred without formal 
patent protection.'' So is this mainly due to the delays at the 
United States Patent and Trademark Office?
    Dr. Hersam. That is correct. So the time from filing a 
patent to getting initial office action in my experience has 
typically been about three years, and then after the office 
action you are looking at another year or more before the 
patent is issued. This field moves so quickly that if you are 
going to commercialize, you have to go to market before your 
patent is issued, and therefore you are assuming risk because 
there is little legal recourse if your patent is not yet 
issued.
    So any effort that can streamline the operation or improve 
the efficiency of the U.S. Patent and Trademark Office I think 
will improve the ability to commercialize nanotechnologies 
because you reduce risk that will allow easier time gaining 
investments and protecting IP, which was developed in the 
United States.
    Mr. Johnson. How many patents team you have with the Patent 
and Trademark Office now?
    Dr. Hersam. Issued?
    Mr. Johnson. No. How many do you have waiting?
    Dr. Hersam. The 28 that you mentioned.
    Mr. Johnson. The 28 are still waiting?
    Dr. Hersam. That is right.
    Mr. Johnson. Okay. And how long have they been there?
    Dr. Hersam. It depends on the----
    Mr. Johnson. Give me the oldest one.
    Dr. Hersam. I have one that was filed in 2005 that is still 
pending.
    Mr. Johnson. Okay. Good grief, nine years.
    Dr. Hersam. That is correct.
    Mr. Johnson. How in your mind could the process be reformed 
at the Patent and Trademark Office and what specific policies 
do you think should be fixed and addressed, especially in this 
area that we are talking about, nanotechnology 
commercialization?
    Dr. Hersam. You know, it is hard to know exactly why thing 
get delayed, but presumably it is not enough patent examiners 
in this field. I mean that is what I would anticipate as a 
limiting factor. It just takes--there is a large stack on the 
desk and it takes a long time to get through those. So getting 
them on the desk of the examiner more quickly presumably would 
be more examiners would help significantly.
    Mr. Johnson. But nine years. You think--I mean 
nanotechnology, I can't imagine that there is--I mean maybe 
there are and maybe I am wrong, but I can't imagine that there 
are that many people flooding the desk of the nanotechnology 
department at the Patent and Trademark Office.
    Dr. Hersam. Yes. So in that regard I guess I am as 
mystified as you are and it is not transparent or obvious to me 
why it takes so long.
    Mr. Johnson. Okay. All right.
    Well, Mr. Chairman, that--those are all the questions I 
have. I yield back the remaining balance of my time. Thank you, 
gentlemen.
    Chairman Bucshon. Thank you.
    I now recognize Ms. Kelly for five minutes for her line of 
questioning.
    Ms. Kelly. Thank you, Mr. Chair.
    Several of you mentioned successful public-private 
partnerships, including the College for Nanoscience and 
Engineering in New York. Are there lessons we can learn from 
public-private partnerships in nanotechnology, in particular 
partnerships that involve significant leveraging of private 
funds? And whoever cares to answer can answer, which I hope 
someone cares to answer.
    Mr. Ivie. I will take a stab at it.
    Ms. Kelly. Okay.
    Mr. Ivie. The University of Notre Dame has a program called 
ESTEEM, which is a graduate one-year program for establishing 
science and entrepreneurship amongst STEM graduates. I think we 
have seen that as becoming successful because, number one, they 
implant interns into our organization. That is people with 
degrees that are useful, help us develop our products, and also 
to turn these students into entrepreneurs themselves.
    I think most four-year graduates, while they like the idea 
of becoming a business owner, what they don't like is the idea 
of becoming impoverished in the process of doing that. However, 
what we have tried to explain to them is that if you are going 
to risk something, risk something before you have a home, 
several car payments, and children to support.
    So we have seen that partnership between us and them and 
other small businesses in our community become very successful.
    Ms. Kelly. That is great. I am sure they are worried about 
all the student loan debt.
    Mr. Ivie. They are, believe me.
    Ms. Kelly. Anyone else?
    Dr. Whitman. So it certainly works best when you have a 
combination of strong technology pull from the industry where 
they see a market and a need that can be met and a good 
technology push with a new technology. That is what you will 
see in something like the Nanoelectronics Research Initiative. 
It also works well when the nature of that public-private 
partnership involves a lot of--a significant amount of 
precompetitive work such that industries feel they can work 
together at that stage, so that certainly is the case there. 
And then the other one--there is one actually with the forest 
products related to nanocellulose. In fact, there is a workshop 
going on today about that field and the challenges and 
opportunities for commercialization, but there is already a 
public-private partnership in the area as well so you need 
those kind of combination of things that make it work.
    Dr. Persons. Yes, ma'am. And I would just add on to Dr. 
Whitman's statement on--emphasizing the precompetitive research 
and development sort of environment that is set up there. It is 
also--and seeing as each case is co-located with universities 
so you have this nice ecosystem of training, as has been 
mentioned a number of times. And there are strong involvement 
in integration with industry needs overall, so there is lots of 
industries coordination on that side and there is coordination 
on the STEM or the educational side.
    Ms. Kelly. Thank you.
    Dr. Stevenson. I would add one specific example that 
Texas--is that--is part of the establishment of the NNIN site. 
They worked with a local company that was founded at University 
of Texas, Molecular Imprints. It has now been sold to Canon. 
And with that agreement the Molecular Imprints gave them a 
significant discount on the state-of-the-art lithographic 
capabilities that then helped facilitate the training from 
people from local companies to use this technology at the NNIN 
site. And this was only enabled because of the partnership 
between the federal investments to establish the NNIN 
capabilities Texas but also the fact that this company is 
really innovating in that particular area a totally different 
way of doing nanofabrication than what is currently done in the 
commercial sense.
    So this partnership really had led not only the training of 
people at different companies but also students and graduate 
students in this area, so it was a very emerging cutting-edge 
technology that was enabled from that.
    Ms. Kelly. Thank you. I yield back.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Stockman, five minutes.
    Mr. Stockman. I am from Texas so I am glad to hear so much 
about Texas, and I think University of Houston also had some 
nanotechnology, so I don't want to--representing Houston, I 
don't want to leave that out.
    I have a friend up in Dallas who spent I think close to 
$100 million of his own money--I wish I could say I spent 
that--but--and one of the things he found out is he developed a 
nanotechnology. The people in the government, particularly the 
EPA, were not as familiar with what he was doing and they came 
in there and--in a way that prohibited him from doing things 
and research, which I don't--there is a gap between government 
regulations and what they know and what they are proposing. And 
then the DOD told him he can't sell his product to pay for his 
research because they said it is classified, so DOD won't buy 
it. And so what happens now--he is looking at going to--in 
transferring his entire company to Abu Dhabi, and I am 
wondering if we can't get feedback from you on how we could 
make sure that we don't lose private corporations because they 
feel restricted either through the EPA or the DOD. So feel free 
to answer.
    Dr. Stevenson. I am happy to answer at least one aspect of 
that question. First of all, EPA seems to be bifurcated in 
their behavior towards certain materials. For example, 
contaminants that you would find in water such as Lake 
Michigan, they might spend 20 to 25 years examining the 
problem, coming up with a prescription for the solution to the 
problem, and then implementing the solution. What we have seen 
in nanotechnology is there already are a huge number of 
regulations we are required to comply with, whether that is 
laboratory safety, material safety, OSHA requirements, in 
Indiana, the Indiana Department of Safety and Health and then 
the University of Notre Dame, so there is already a very large 
contingent of regulations that we have to comply with.
    I think part of what we are seeing is probably a political 
reaction, number one, and secondly, a misunderstanding of what 
it is we are dealing with. They don't understand the 
characteristics of the materials and many of their laboratories 
that they have in places like Cincinnati have not dealt with 
these things before.
    So the solution to what EPA is doing I am not sure what the 
solution is, but one thing I am certain is not a solution is 
not talking about it and that seems to be what is on the agenda 
right now. There isn't a lot of public disclosure about what 
they are going to do.
    Mr. Stockman. Given that you are in the private sector, is 
there any way you can get to this Committee some of the 
problems you are seeing? Because I think for us we make laws 
for you to make and facilitate your productivity and we want to 
see you succeed, but if we don't know the problems, we can't 
correct that. And to me it was alarming because here is a guy 
who put in a lot of his own money and now is forced to leave 
because the people--given the rules and regulations, a lot of 
them don't have a clue. I mean they don't have a clue about 
what you are doing and so they just shoot in the dark at 
regulations saying, well, I hope this regulation is going to 
help. We don't really know. There is no case study to prove our 
regulation is going to help and it is driving people out even 
before this industry takes off.
    And for me to see America's competitiveness being driven 
down by people that don't know what is going on is pretty 
alarming to me.
    Mr. Ivie. Well, I think in my opinion what I would rather 
see happen instead of giving F Cubed a grant, for example, or a 
small business loan, what I would refer to see is something 
like a program at the U.S. EPA for the Unregulated Contaminant 
Monitoring Rules that they already have in place to examine 
these things over a period of time with the NSF or an 
organization like that. We already know this has worked with 
other contaminants such as hexavalent chromium or hormones that 
are being injected into the water system through waste streams. 
That is probably the most important thing. I just don't think 
they are being pressured to do that. That is where their true 
scientific capability lies.
    With regard to your friend who is going to Abu Dhabi, one 
thing I can say, we experience this on a daily basis. Many 
organizations in places, not so much the Middle East but in 
Asia, are spending a huge amount of money trying to do what we 
are doing. That is they are trying to develop entrepreneurs to 
take over nanotechnology. The difference is that so far from a 
cultural point of view they have not succeeded in doing that. 
It is not because they are not just spending the money to try, 
however.
    Mr. Stockman. Well, they don't even make the distinction 
between friable and un-friable or in suspension. They just use 
a shotgun.
    But I appreciate your feedback. If you can get us ways that 
we can improve the efficiency, I would appreciate that.
    Mr. Ivie. Certainly.
    Mr. Stockman. Thank you, Mr. Chairman. Thank you for having 
the hearing.
    Chairman Bucshon. Thank you. And--excuse me. At this point 
I would like to thank the witnesses for their valuable 
testimony, very fascinating subject, and the Members for their 
questions. The record will remain open for two weeks for 
additional comments and written questions from Members.
    The witnesses are excused and the hearing is adjourned.
    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Lloyd Whitman]

[GRAPHIC] [TIFF OMITTED] 

Responses by Mr. Les Ivie

[GRAPHIC] [TIFF OMITTED] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record



Submitted statement of lamar S. Smith, Chairman, Committee on Science, 
                          Space and Technology
    Thank you Chairman Bucshon for holding today's hearing.
    Many believe nanotechnology has the potential to usher in the next 
industrial revolution. Last February, the Government Accountability 
Office (GAO) released a report that the Committee's Chairman Emeritus, 
Mr. Hall, and I had requested, titled, ``Nanomanufacturing: Emergence 
and Implications for U.S. Competitiveness, the Environment, and Human 
Health.''
    The report described nanomanufacturing as a future megatrend with 
societal and economic impacts that could surpass even the digital 
revolution. It also predicted further scientific breakthroughs in this 
area that will lead to new engineering developments and improvements in 
the manufacturing sector.
    The report recommended that Congress update current innovation-
related policies and programs and that we promote U.S. innovation in 
manufacturing through public-private partnerships. One such public-
private partnership is the National Nanotechnology Infrastructure 
Network (NNIN). The NNIN is a partnership of user facilities, supported 
by the National Science Foundation (NSF), which serves the needs of 
nanoscale science, engineering and technology.
    The University of Texas at Austin is home to one of these 
facilities called the Microelectronics Research Center (MRC). This 
center performs research to improve materials used in the integrated 
circuit industry and related industries.
    The MRC is more than a clean room with open-access to advanced 
nano-fabrication equipment. It is a community of scientists who work 
together to share knowledge in order to ensure a more advanced and 
competitive America.
    More importantly, MRC is leading the way in the instrumentation for 
manufacturing--precisely the area that was recommended for emphasis in 
the GAO report.
    In 2013, NSF requested proposals for a Next Generation 
Nanotechnology Infrastructure Network (NG-NNIN). Two teams of 
universities responded to this call. Last March, NSF decided not to 
fund either of the NG-NNIN proposals under consideration.
    Given the importance of nanotechnology research and the GAO report 
recommendation that the U.S. maintain and enhance competitiveness in 
this area, I don't know of a good explanation for NSF's decision.
    I look forward to the witnesses' testimony on how we can ensure 
that the U.S. remains the world leader in nanotechnology research. I 
would especially like to thank Chemistry Professor Keith Stevenson, 
from the University of Texas at Austin, for his participation this 
morning.

                                 <all>

</pre></body></html>
